Audit Report




OIG-12-057
DODD-FRANK ACT: Treasury Has Made Progress to Stand-up
the Office of Financial Research
June 27, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Background ................................................................................................ 2

  Results of Review........................................................................................ 4

      Progress toward Stand-Up Made, and Comprehensive Planning and
      Implementation Efforts are Underway ........................................................ 4

  Concluding Remarks and Recommendation ..................................................... 10

Appendices

  Appendix     1:     Objective, Scope, and Methodology ........................................             12
  Appendix     2:     Management Comments ........................................................           14
  Appendix     3:     Major Contributors to This Report ...........................................          15
  Appendix     4:     Report Distribution ................................................................   16


Abbreviations

  CFPB                Consumer Financial Protection Bureau
  DO                  Departmental Offices, Department of the Treasury
  FRB                 Board of Governors of the Federal Reserve System
  FSOC                Financial Stability Oversight Council
  GPRA                Government Performance and Results Act
  IT                  information technology
  LEI                 Legal Entity Identifier
  OFR                 Office of Financial Research




                      Treasury Has Made Progress to Stand-up OFR                                         Page i
                      (OIG-12-057)
         This page intentionally left blank.




Treasury Has Made Progress to Stand-up OFR     Page ii
(OIG-12-057)
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                       June 27, 2012

                       Michele Shannon
                       Chief Operating Officer

                       The Dodd-Frank Wall Street Reform and Consumer Protection Act
                       (Dodd-Frank), enacted July 21, 2010, created the Office of Financial
                       Research (OFR) within the Department of the Treasury to support the
                       Financial Stability Oversight Council (FSOC) and its member agencies. 1
                       This report presents the results of our audit of Treasury’s activities to
                       establish OFR as of April 2012. This audit was included in the Office
                       of Inspector General Fiscal Year 2011 Annual Plan.

                       Our audit objective was to evaluate the effectiveness and status of
                       Treasury’s process to establish OFR in a manner that achieves its
                       legislative mandate. We conducted our field work from June 2011
                       through April 2012. We interviewed OFR and Treasury management
                       personnel responsible for establishing OFR and reviewed
                       documentation provided by OFR. Appendix 1 contains a more detailed
                       description of our objective, scope, and methodology.

                       In brief, we found that, in the 21 months since OFR was created,
                       efforts to establish the office are still in progress. The officials
                       responsible for establishing OFR initially engaged in high-level
                       strategic and organizational planning and sought to hire key
                       personnel. They also focused their attention on developing and
                       facilitating the global acceptance of a universal Legal Entity Identifier



1
  FSOC, also established by Dodd-Frank, is charged with identifying threats to the financial stability of the
U.S., promoting market discipline, and responding to emerging risks to the financial stability of the U.S.
financial system. FSOC consists of 10 voting members and 5 nonvoting members. Its members include the
Secretary of the Treasury, chief executives of the federal financial regulators, certain state financial
regulators, and an insurance expert. The OFR Director is a nonvoting member of FSOC.



                       Treasury Has Made Progress to Stand-up OFR                                   Page 1
                       (OIG-12-057)
                        (LEI), 2 while leveraging Treasury’s Departmental Offices (DO) to
                        support OFR’s administrative functions. In Summer 2011, after key
                        operational personnel were brought on board, progress toward
                        establishing a comprehensive implementation planning and project
                        management process accelerated. This culminated in the approval of
                        OFR’s Project Management Methodology in January 2012, OFR’s
                        Strategic Framework in March 2012, and OFR’s Strategic Roadmap
                        in April 2012. While not finalized until well over a year after it was
                        established, these documents and methodology, taken together, now
                        provide OFR with a comprehensive implementation plan. This plan
                        lays out the expected evolution of OFR’s capabilities, reaching a
                        mature state by fiscal year 2016. Concurrent with the development
                        of its comprehensive implementation plan, OFR also began to
                        develop its analytic and data support for FSOC, and its Research and
                        Analysis Center has sponsored seminars and published two working
                        papers on risk assessment topics.

                        We are recommending that OFR monitor its progress in carrying out
                        the activities in the comprehensive implementation plan and take
                        actions timely to address any slippages or otherwise make
                        adjustments so as to achieve the objectives and timeframes in the
                        plan.

                        In a written response, which is included as appendix 2, OFR provided
                        its planned corrective action which we consider responsive to our
                        recommendation.

Background
                        Title I of Dodd-Frank created OFR to support FSOC and its members.
                        The act details the types of support to be provided including data
                        collection, research, and risk measurement and monitoring. OFR is
                        expected to improve the quality of financial data available to
                        policymakers and facilitate a more robust and sophisticated analysis of
                        the financial system. OFR is to be headed by a Presidentially

2
  LEI is being developed as the universal standard for identifying all parties to financial contracts. It is a key
element in OFR’s effort to understand and monitor risks to financial stability and meet its statutory mandate
to develop and promote data standards.


                        Treasury Has Made Progress to Stand-up OFR                                     Page 2
                        (OIG-12-057)
                        appointed, Senate-confirmed Director. On December 16, 2011, the
                        President nominated Mr. Richard Berner to serve as OFR Director.
                        Although the Director position currently remains vacant while Mr.
                        Berner’s confirmation is under consideration in the U.S. Senate, Mr.
                        Berner is assisting in the stand-up of the OFR in his capacity as
                        Counselor to the Secretary of the Treasury.

                        To execute its mission functions, OFR is in the process of standing up
                        two primary operational centers: (1) a data center to acquire, validate,
                        maintain, and distribute the data necessary to help regulators identify
                        vulnerabilities in the financial system as a whole, and to develop and
                        promote data standards; and (2) a research and analysis center to
                        conduct, coordinate, and sponsor research to support and improve
                        regulation of financial firms and markets. Dodd-Frank gives the OFR
                        Director significant latitude in determining the methods used to
                        achieve its legislative mandate. While Dodd-Frank does not set a
                        deadline for the office to be fully stood up, it does set a deadline of
                        July 21, 2012, for OFR’s first required congressional reporting on the
                        state of the U.S. financial system.

                        Dodd-Frank also requires the Board of Governors of the Federal
                        Reserve System (FRB) to fund OFR’s operations for an initial period of
                        2 years, through July 21, 2012. 3 After the initial funding period, OFR
                        is to be funded by an assessment on large bank holding companies
                        and non-bank financial companies. 4 Treasury issued a final rule
                        establishing this assessment for bank holding companies and an
                        interim final rule establishing the assessment for non-bank financial
                        companies on May 21, 2012, with the first assessments to occur on
                        July 20, 2012 5 .



3
  Section 155 (c), Interim Funding.
4
  Section 155 (d), Permanent Self Funding, defines large bank holding companies and nonbank financial
companies as bank holding companies with total consolidated assets of $50 billion and nonbank financial
companies supervised by FRB.
5
  Federal Register Volume 77, No. 98 (May 21, 2012), page 29884, Department of the Treasury,
Assessment of Fees on Large Bank Holding Companies and Nonbank Financial Companies Supervised by the
Federal Reserve Board To Cover the Expenses of the Financial Research Fund. The effective date for the
final rule is July 20, 2012; the effective date for the interim final rule is July 20, 2012, with a due date for
comments of September 18, 2012.


                        Treasury Has Made Progress to Stand-up OFR                                   Page 3
                        (OIG-12-057)
Results of Review

             Progress toward Stand-Up Made, and Comprehensive
             Planning and Implementation Efforts are Underway

             Based on our review of planning documents and interviews with
             officials, we found that OFR developed initial high-level plans to
             identify the resources and infrastructure needed to achieve its
             legislative mandate. In the beginning, Treasury officials responsible for
             standing-up OFR were focusing on two areas:

                •   Promoting and obtaining global acceptance of an LEI system
                    which is expected to provide the mechanism that will make it
                    possible for regulators and market participants to understand
                    more fully the interconnections and exposures among and
                    across financial institutions and markets and thereby improve
                    their ability to identify and mitigate threats to the financial
                    system; and,

                •   Leveraging DO administrative support; specifically, human
                    resources, information systems, procurement, budget and
                    accounting processes, while supplementing them as needed
                    with OFR-specific policies and procedures.

             Progress has been made toward broader acceptance of an LEI and in
             standing up the administrative functions needed to support OFR. In
             addition, OFR has begun providing analytic and data support for FSOC
             and has produced a number of products through its Research and
             Analysis Center. However, OFR has just recently, in April 2012,
             finalized the longer-term component of its comprehensive
             implementation plan that lays out how it will stand up all of its
             activities and functions. The status of each OFR key operational
             component, as of the end of our field work, is discussed in the
             remainder of this report.




             Treasury Has Made Progress to Stand-up OFR                      Page 4
             (OIG-12-057)
Organizational Structure and Human Resources

OFR has laid out an organizational structure that accounts for its
mandated functional units and addresses its administrative needs. DO
is currently providing OFR with human resources capabilities to
support its staffing efforts. OFR is using existing DO practices where
possible, but has also established OFR-specific human resource
policies, where needed, including a uniform pay and classification
system. According to officials, OFR projects that it will have 212
employees on-board by the end of fiscal year 2012. As of May 7,
2012, OFR had 78 employees on-board and filled 5 of its 8 executive
positions. As of that date, one of the executives, the Chief Business
Officer, was serving as the Acting Deputy Director of the Data Center.

Figure: OFR Organization Chart


                                            Office of Financial Research
                                                            Organization Chart



                                                 Director




                     Deputy                                   Deputy 
                     Director                                 Director 
                                                              Research & 
                     Data Center                             Analysis Center




         Chief                        Chief                                     Chief of                 Chief 
                                                                                              Chief 
        Business                   Technology                                  Analytical              Operating 
                                                                                             Counsel
         Officer                     Officer                                    Strategy                Officer



           ‐ Position Filled

           ‐ Acting or Detailee in the Position

           ‐ Position Not Filled




Source: OFR

As noted previously, a nominee for the position of OFR Director has
been announced. In the absence of a Director, OFR can perform its
operational functions under the Treasury Secretary’s authority.



Treasury Has Made Progress to Stand-up OFR                                                                          Page 5
(OIG-12-057)
                      Data Standards, Research, and Analysis

                      OFR is working with the FSOC and its member agencies, directly and
                      through the FSOC Data Committee, to evaluate data requirements of
                      the FSOC and work to deliver needed data and metrics. To this end,
                      OFR is currently engaged in a long term project to inventory data that
                      is purchased, collected, or derived by FSOC member agencies.
                      According to OFR’s project tracking reports, the purchased data
                      inventory has been completed, the collected data inventory is to be
                      completed by August 2012, and the derived data inventory is to be
                      completed by September 2013. OFR has prepared reports for FSOC
                      consisting of metrics and indicators related to financial stability drawn
                      from previous academic research.

                      OFR’s Research and Analysis Center has established forums and
                      networks to allow experts within and outside the regulatory system to
                      contribute to OFR’s mission. For example, on December 1 and 2,
                      2011, OFR hosted a conference entitled The Macroprudential Toolkit:
                      Measurement and Analysis where regulators, academics, and industry
                      representatives discussed issues related to systemic risk monitoring.
                      OFR also collaborated with outside researchers to produce working
                      papers on risk assessment topics and engaged the academic
                      community in a series of OFR-sponsored research seminars.

                      OFR officials believe establishing a globally accepted LEI system is of
                      great importance. Specifically, they expect that the acceptance of
                      such a system will provide the mechanism that will make it possible
                      for regulators and market participants to understand more fully the
                      interconnections and exposures among and across financial
                      institutions and markets and thereby improve their ability to identify
                      and mitigate threats to the financial system. In November 2010, OFR
                      published a statement of policy with a request for comment which
                      defined the characteristics of a functional LEI system and OFR’s
                      intention to require the use of such a system in data reported to it. 6
                      While it was originally anticipated that such a system would be
                      established and adopted by mid-2011, expectations have been revised

6
 Federal Register Volume 75, No. 229 (Nov. 30, 2010), page 74146, Office of Financial Research;
Statement on Legal Entity Identification for Financial Contracts.


                      Treasury Has Made Progress to Stand-up OFR                             Page 6
                      (OIG-12-057)
in light of challenges in gaining global support and acceptance for a
universal LEI. OFR now expects global acceptance by mid-2012, with
a phased rollout by transaction class and geographic region over a 2-
to 5-year period.

Information Technology and Operational Processes

OFR is scoping out its information technology (IT) and IT security
infrastructure, operational and organizational governance processes,
and stakeholder coordination and communication methods. These
things are all necessary for OFR to meet its legislative mandate. OFR’s
current plan calls for a sequential strategy, beginning this fiscal year,
where the foundations for OFR’s capabilities with regard to data
collection, analysis, research, and collaboration with FSOC member
agencies are to be established. This is to be followed by a continued
development of IT and business systems with the goal of satisfying
immediate needs while reaching a mature state by fiscal year 2016.

OFR is leveraging DO’s local area network and IT infrastructure,
including office productivity systems and other software to perform
work. At the time of our review, OFR had augmented these resources
to establish a short term analytical environment. OFR officials told us
that this analytical environment is maintained within a segregated
portion of the DO network which has been secured in accordance with
OFR-specific needs. The officials also told us that all systems used are
maintained in accordance with DO security policies and procedures
and that access to sensitive data is restricted to only those individuals
whose job responsibilities require it.

Administrative Functions

OFR entered into a reimbursable services agreement with the Treasury
Franchise Fund’s Administrative Resource Center at the Bureau of the
Public Debt to provide its payroll, budgeting, finance and accounting,
and procurement services. OFR officials told us that critical internal
control procedures have been implemented. Written policies and
procedures have been developed for the budget execution and
acquisition process. DO policies and procedures are currently being
used for other processes such as budget formulation and financial


Treasury Has Made Progress to Stand-up OFR                      Page 7
(OIG-12-057)
                       reporting. OFR is currently evaluating whether further OFR-specific
                       procedures are required.

                       Budget and Performance

                       OFR’s fiscal year 2011 estimated budget was $34 million. During the
                       year, OFR made funding requests of $13.1 million from FRB, of which
                       $11.3 million was spent or obligated as of September 30, 2011.
                       OFR’s fiscal year 2012 estimated budget is $109.7 million, of which
                       $20.4 million was obligated or outlayed as of March 31, 2012. The
                       fiscal year 2013 budget request shows OFR’s estimated expenses at
                       $138.2 million.

                       OFR officials told us that they have not yet developed performance
                       measures for the office. However, they plan to establish performance
                       measures during fiscal year 2012 and to implement them beginning in
                       fiscal year 2013. The importance of performance measures for
                       gauging the progress and influencing the management of programs
                       and projects at all levels of an agency is well recognized.
                       Requirements and guidelines for such measures are in the Government
                       Performance and Results Act of 1993 (GPRA) as amended by the
                       GPRA Modernization Act of 2010. 7 Until performance measures are
                       developed and implemented, OFR may be at a disadvantage in
                       effectively communicating/demonstrating its accomplishments.

                       Assessments

                       As noted above, on January 3, 2012, Treasury exposed a rule for
                       public comment that would establish OFR’s assessment methodology.
                       Treasury issued a final rule establishing this assessment for bank
                       holding companies and an interim final rule establishing the
                       assessment for non-bank financial companies on May 21, 2012, with
                       the first assessments to occur on July 20, 2012.




7
    GPRA, Pub. L. No. 103-62; and GPRA Modernization Act, Pub. L No. 111-352.


                       Treasury Has Made Progress to Stand-up OFR                    Page 8
                       (OIG-12-057)
                       Comprehensive Implementation Plan

                       The development of a comprehensive implementation plan as early as
                       possible in standing up a new organization and the regular
                       measurement of progress against that plan are recognized best
                       practices. OFR’s planning activities have evolved over time. For over a
                       year after it was established, OFR pursued high-level planning
                       activities, but did not develop a comprehensive implementation plan or
                       employ formal project tracking capability to help lay it out, control,
                       and monitor the development and deployment of its infrastructure and
                       operational processes.

                       The operations and project managers needed to develop a formal,
                       detailed and comprehensive implementation plan, along with project
                       tracking capability to monitor the progress, were not brought on board
                       until the summer of 2011. Since then, notable progress has been
                       made. A Program Management Office was established in August 2011
                       and it began to implement a project management methodology. That
                       methodology was finalized and approved in January 2012.

                       OFR’s Program Management Office provides documentation of key
                       decisions regarding the design and execution of critical deliverables,
                       infrastructure, processes, policies, and procedures. The methodology it
                       is using also provides for documented approval of decisions by the
                       appropriate level of management or governing committee. Among
                       other things, the methodology requires that OFR define required
                       workstreams, assign accountability for completion, and set the
                       milestones and due dates against which progress is measured and
                       reported. Beginning in late 2011, OFR developed project plans with
                       workstreams, milestones, and project due dates for certain critical
                       near-term projects, such as preparing the first mandated OFR annual
                       report. 8



8
  Dodd-Frank, Sec. 154, Reporting Responsibilities, requires OFR to submit annual reports to Congress that
assesses the state of the U.S. financial system, including (1) an analysis of any threats to the financial
stability of the U.S., (2) the status of the efforts of OFR in meeting its mission, and (3) key findings from
OFR’s research and analysis of the financial system. The first report under this requirement is due July 21,
2012.


                       Treasury Has Made Progress to Stand-up OFR                                   Page 9
                       (OIG-12-057)
                       OFR also developed a strategic plan which was approved by Treasury
                       management in March 2012. 9 In April 2012, OFR finalized its longer-
                       term Strategic Roadmap which lays out the expected evolution of
                       OFR’s capabilities through to the achievement of a mature state by
                       fiscal year 2016. These documents, when supplemented with other
                       planning documents and individual project plans produced by the
                       Project Management Office, collectively provide OFR with a
                       comprehensive implementation plan.

Concluding Remarks and Recommendation

                       As an observation, Dodd-Frank required Treasury to establish four
                       new offices: OFR, the Consumer Financial Protection Bureau
                       (CFPB), 10 a Federal Insurance Office, and an Office of Minority and
                       Women Inclusion within DO. 11 We and the FRB OIG performed a joint
                       review of CFPB’s implementation planning activities. We reported on
                       July 15, 2011, about a year after Dodd-Frank became law, that
                       CFPB identified and documented implementation activities that were
                       critical to standing up the agency’s functions and necessary to
                       address certain Dodd-Frank requirements. 12 CFPB did successfully
                       stand up its operations on July 21, 2011, in accordance with Dodd-
                       Frank; an accomplishment that we attribute to its comprehensive
                       planning and implementation process. While we recognize OFR’s
                       mission is an entirely new undertaking for Treasury whereas CFPB, in
                       part, consolidated existing government functions and personnel under

9
  OFR, Strategic Framework Office of Financial Research FY 2012 - FY 2014. OFR established five strategic
goals consistent with its mandate defined in Dodd-Frank. These strategic goals are: (1) support the FSOC
through the secure provision of high quality financial data and analysis needed to monitor threats to
financial stability, (2) develop and promote data-related standards and best practices, (3) establish a center
for excellence for research on financial stability and promote best practices for financial risk management,
(4) provide the public with key data and analysis, while protecting sensitive information, and (5) establish
the OFR as an efficient organization and a world-class workplace.
10
   Dodd-Frank established CFPB as an independent agency within, but autonomous from, the Federal
Reserve System. Treasury was authorized to provide interim administrative services supporting CFPB before
July 21, 2011.
11
   Dodd-Frank also required the Office of the Comptroller of the Currency to establish an Office of Minority
and Women Inclusion. We plan to review the Federal Insurance Office and the Offices of Minority and
Women Inclusion in the future.
12
   Treasury OIG and FRB OIG, Review of CFPB Implementation Planning Activities, FRB OIG 2011-03/OIG-
11-088 (July 15, 2011)


                       Treasury Has Made Progress to Stand-up OFR                                 Page 10
                       (OIG-12-057)
one agency, the CFPB experience underscores the benefit of
comprehensive planning for mission-critical and administrative
activities necessary to stand up a new organization.

While progress has been made in laying the foundation for OFR’s
operational capabilities, OFR took longer than might have been
expected to implement a project management capability and finalize a
comprehensive implementation plan. OFR’s operational success will
depend, in part, on its ability to effectively execute its plan.

Accordingly, we recommend that the Chief Operating Officer of OFR
monitor the progress in carrying out the activities in the
comprehensive implementation plan and take timely action to address
any slippages or otherwise make adjustments so as to achieve the
objectives and timeframes in the plan.

Management Response

OFR will continue to monitor progress in carrying out the activities in
its comprehensive implementation plan. OFR also plans to establish
performance measures during fiscal year 2012, and implement them
beginning in fiscal year 2013.

OIG Comment

OFR’s planned action is responsive to our recommendation.

                               * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-0384 or James Lisle, Audit Manager, at (202)
927-6345. Major contributors to this report are listed in appendix 3.



Jeffrey Dye /s/
Director, Banking Audits



Treasury Has Made Progress to Stand-up OFR                     Page 11
(OIG-12-057)
                      Appendix 1
                      Objective, Scope and Methodology




                      The objective of this review is to determine the effectiveness of
                      Treasury’s process to establish the Office of Financial Research
                      (OFR) in a manner which achieves the office’s legislative mandates
                      under the Dodd-Frank Wall Street Reform and Consumer Protection
                      Act (Dodd-Frank).

                      To achieve the audit objective, we developed criteria using the
                      applicable Dodd-Frank sections and best practices derived from
                      various reports prepared by consultants and the Government
                      Accountability Office 13 . Using these criteria, we reviewed
                      documentation provided by OFR pertaining to the stand-up of OFR
                      and interviewed key personnel. We:

                         •   reviewed planning documentation provided by OFR related
                             to: human resources, budget and finance, procurement, data
                             collection and analysis, information security, technology
                             infrastructure, and assessment functions. We also reviewed
                             documentation pertaining to OFR’s efforts to establish
                             globally accepted legal entity identifiers (LEI).

                         •   interviewed OFR management and Treasury Departmental
                             Offices (DO) personnel detailed to or coordinating with
                             OFR. Specifically, we interviewed the Counselor to the
                             Secretary, who is the nominee for OFR Director, and the
                             following OFR officials; Chief Operating Officer; Associate
                             Director, Program Management; Chief Technology Officer,
                             who was serving as Acting OFR Deputy Director – Data
                             Center and Chief Business Officer; and Management Lead
                             (DO reimbursable support). We also interviewed the DO
                             Chief Information Security Officer, the Treasury Deputy
                             General Counsel, and the DO Chief Human Capital Officer.

                      We performed our audit field work from June 2011 through April
                      2012.

                      We conducted this performance audit in accordance with
                      generally accepted government auditing standards. Those

13
  Booz Allen Hamilton – Research and Analysis: Organizational Stand-Ups Lessons Learned and Key
Insights (May 2010); and General Accountability Office – GAO-03-669, Results Oriented Cultures:
Implementation Steps to Assist Mergers and Organizational Transformations (July 2003)

                      Treasury Has Made Progress to Stand-up OFR                            Page 12
                      (OIG-12-057)
Appendix 1
Objective, Scope and Methodology




standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Treasury Has Made Progress to Stand-up OFR                   Page 13
(OIG-12-057)
Appendix 2
Management Comments




Treasury Has Made Progress to Stand-up OFR   Page 14
(OIG-12-057)
Appendix 3
Major Contributors to This Report




James Lisle, Audit Manager
Adelia Gonzales, Auditor
Vicki Preston, Auditor
Olivia Scott, Auditor
Marco Uribe, Auditor
Gregory Sullivan, Referencer




Treasury Has Made Progress to Stand-up OFR   Page 15
(OIG-12-057)
Appendix 4
Report Distribution




Department of the Treasury

   Deputy Secretary
   Counselor to the Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of Financial Research

   Chief Operating Officer
   Deputy Director – Data Center
   Chief Technology Officer
   Chief of Analytical Strategy
   Chief Counsel

Office of Management and Budget

   OIG Budget Examiner




Treasury Has Made Progress to Stand-up OFR                    Page 16
(OIG-12-057)
